      Department of Homeland Security




        Improvements Needed for SAVE To Accurately 

     Determine Immigration Status of Individuals Ordered 

                        Deported





OIG-13-11 (Revised)                           December 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov



                                  December 7, 2012

MEMORANDUM FOR:	             Lori Scialabiba
                             Deputy Director
                             U.S. Citizenship and Immigration Services

FROM:	                       Frank Deffer
                             Assistant Inspector General
                             Information Technology Audits

SUBJECT:	                    Improvements Needed for SAVE To Accurately Determine
                             Immigration Status of Individuals Ordered Deported

Attached for your action is our revised final report, Improvements Needed for SAVE To
Accurately Determine Immigration Status of Individuals Ordered Deported. We
incorporated the formal comments from the U.S. Citizenship and Immigration Services
in the final report. We are reissuing this report based on technical comments received
from U.S. Citizenship and Immigration Services after the formal comment period.

The report contains four recommendations aimed at improving the accuracy of the
SAVE program. Your office concurred with all four recommendations. Based on
information provided in your response to the draft report, we consider all four
recommendations resolved. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that
we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.”

Please call me with any questions, or your staff may contact Tuyet-Quan Thai, Regional
Director, at (425) 582-7861.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 3 


              USCIS’ Class of Admission Code Is Not Updated When an Individual Is Ordered
              Deported But Is Still in the United States ............................................................... 3
              Recommendations ................................................................................................. 7
              Management Comments and OIG Analysis ........................................................... 7

              Inaccurate Source Data Resulted in a High Error Rate for the Population of
              Individuals Ordered Deported…….…………………………………………………………………… .. 8
              Recommendations……………………………………………………………………………………………..11
              Management Comments and OIG Analysis…………………………………………….…………..11

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 13 

              Appendix B:          Management Comments to the Draft Report ............................... 15 

              Appendix C:          Major Contributors to This Report ................................................ 18 

              Appendix D:          Report Distribution ........................................................................ 19 


   Abbreviations
              CPMS                  Customer Profile Management System
              DHS                   Department of Homeland Security
              DOJ                   U.S. Department of Justice
              EARM                  ENFORCE Alien Removal Module
              EOIR                  Executive Office for Immigration Review
              ICE                   U.S. Immigration and Customs Enforcement
              ISRS                  Image Storage and Retrieval System
              OIG                   Office of Inspector General
              SAVE                  Systematic Alien Verification for Entitlements
              TSA                   Transportation Security Administration
              TWIC                  Transportation Worker Identification Card
              USCIS                 U.S. Citizenship and Immigration Services
              VIS                   Verification Information System



www.oig.dhs.gov                                                                                                                  OIG-13-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   We audited the U.S. Citizenship and Immigration Services’ (USCIS) Systematic Alien
   Verification for Entitlements program to determine the accuracy of information used to
   validate an applicant’s immigration status when the applicant had been ordered
   deported. Our objectives were (1) to assess whether the Systematic Alien Verification
   for Entitlements program uses accurate and up-to-date information to validate
   immigration status of deportable, removable, and excludable individuals, and (2) if
   Systematic Alien Verification for Entitlements is not using accurate information, to
   determine the rate of error with respect to verification of these individuals’ status.

   The Systematic Alien Verification for Entitlements program provided information that
   was sometimes outdated and erroneous about an individual’s immigration status to
   benefit-granting agencies. This occurred because status codes in the Central Index
   System were generally not updated when the Immigration Court issued a decision to
   remove, deport, or exclude an individual from the United States. Instead, the codes
   were updated when the individual physically left the United States, which can take
   years. This problem could potentially affect the more than 800,000 individuals who
   have been ordered deported, removed, and excluded but who are still in the United
   States. Although the Systematic Alien Verification for Entitlements response in and of
   itself did not automatically result in approval of financial or other benefits by Federal,
   State, and local agencies, an erroneous response could result in agencies granting
   benefits to unentitled individuals.

   Our random statistical sample tests of individuals who had been ordered deported but
   still remained in the United States identified a 12 percent error rate in immigration status
   verification. In other words, these individuals had no status, but were erroneously
   identified as having lawful immigration status. The remaining 88 percent passed our
   tests because the individuals had lawful immigration status at the time of status
   verification. This includes situations where the individual (1) was ordered deported
   after the verification or (2) obtained permanent or temporary status after being ordered
   deported but before the status verification. Benefits for which individuals were verified
   ranged from airport badges and Transportation Worker Identification Cards, which
   provide individuals with access to secure areas, to food stamps, driver’s licenses, and
   education assistance. Some individuals included in our sample had committed felonies
   ranging from citizenship fraud to aggravated assault.

   We made four recommendations to the Deputy Director, USCIS, to improve the
   accuracy of the Systematic Alien Verification for Entitlements program.




www.oig.dhs.gov                                 1                                         OIG-13-11
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



   Background
   In response to the requirements of the Immigration Reform and Control Act of 1986, as
   amended, and subsequent legislation, USCIS established the Systematic Alien
   Verification for Entitlements (SAVE) program under the Verification Division to verify the
   immigration status of noncitizen applicants for Federal, State, or local benefits and
   licenses. 1 As of April 1, 2012, more than 800,000 individuals who were ordered
   deported, removed, or excluded (heretofore referred to as deportable) were still
   residing in the United States. 2 The objectives of this work were (1) to assess whether
   SAVE uses accurate and up-to-date information to validate immigration status of
   deportable individuals, and (2) if SAVE is not using accurate information, to determine
   the rate of error in SAVE with respect to verification of deportable individuals.

   SAVE is primarily a Web-based system that uses the Verification Information System
   (VIS) to provide almost instantaneous responses to immigrant status inquiries.
   Programs that are mandated to participate in status verification include Medicaid, food
   stamps, educational and housing assistance programs, and certain license-issuing
   programs. Typically, SAVE verification involves the following process:

       �	 Applicable Federal, State, and local benefit-granting agencies review proof of
          immigration status from noncitizen applicants, such as a Permanent Resident
          Card or Employment Authorization Document. Other forms may also be used to
          demonstrate immigration status.

       �	 Using the numerical identifier, such as an alien number, naturalization number,
          or other relevant information, the agency submits a SAVE inquiry electronically. 3


   1
     The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Public Law 104-193, as
   amended, restricted immigrant eligibility for public benefits and required verification of immigration
   status. The Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Public Law No. 104-208,
   Division C, as amended, expanded the use of the SAVE program by Federal, State, local agencies for any
   purposes authorized by law. The REAL ID Act of 2005, Public Law 109-13, Division B, (REAL ID) established
   certain minimum standards for State-issued driver’s licenses and State-issued identification cards.
   According to Code of Federal Regulation Title 6, Part 37, States must use the SAVE program to verify the
   immigration status of applicants for driver’s licenses and identification cards. States were required to
   comply with REAL ID by May 11, 2011. The Patient Protection and Affordable Care Act, Public Law 111­
   148, as amended, provides health insurance benefits for qualified “aliens lawfully present in the United
   States.” Immigration status verification of noncitizen applicants is part of the eligibility determination.
   2
     Data obtained from U.S. Immigration and Customs Enforcement (ICE) reflect the number of individuals
   with an order of deportation, exclusion, or removal. Other individuals who are in the United States
   illegally but have not been ordered deported are not represented in these numbers.
   3
     A paper-based verification process is also available to agencies not participating electronically.


www.oig.dhs.gov                                         2	                                              OIG-13-11
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


       �	 During the initial verification process, VIS provides a response based on the
          documentary and biographic information presented.

       �	 VIS performs this verification either using data from multiple sources, including
          the Central Index System (the primary data source used to confirm immigration
          status when an alien number is presented), or through interfaces with other
          systems maintained by USCIS or other Federal agencies.4

       �	 Within a few seconds, SAVE electronically either confirms that the applicant has
          immigrant status and/or employment authorization, or prompts the inquiring
          agency to institute additional verification.

       �	 Agencies requesting identity verification compare results against source 

          documents and provide additional information as necessary.


       �	 The additional verification may require submission of supplemental information
          from the applicant. Verification staff manually review the supplemental
          information and access a number of systems that are not available during the
          initial verification process to confirm status.

   Results of Audit
           USCIS’ Class of Admission Code Is Not Updated When an Individual Is Ordered
           Deported But Is Still in the United States

           Central Index System, the primary system SAVE accesses to validate an
           individual’s immigrant status, is not immediately updated when the Immigration
           Court orders an individual deported, removed, or excluded. 5 The ultimate
           decision to provide or deny benefits rests with the Federal, State, and local
           agencies that submitted the verification inquiry. However, by erroneously
           verifying that a deportable individual has status to receive benefits, SAVE may
           have enabled the inquiring agency to grant financial and other benefits (e.g.,
           access to secure areas, education grants, and housing assistance) to people who
           are no longer eligible to receive those benefits.

   4
     In addition to the Central Index System, VIS is either updated or interfaces with other systems when
   documents with other numeric identifiers are presented, such as the Customer Profile Management
   System (CPMS), Treasury Enforcement Communications System Real-Time Arrivals, Treasury Enforcement
   Communications Systems I-94, Computer Linked Application Information Management System 4, and
   Reengineered Naturalization Application Casework System.
   5
     Deportation, removal, and exclusion orders are different with regard to notice, the individual’s rights,
   procedures, burden of proof, evidence, relief, and consequences.


www.oig.dhs.gov                                        3	                                              OIG-13-11
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



            The Data Quality Act requires Federal agencies to maximize the quality,
            objectivity, utility, and integrity of information they disseminate. 6 The Standards
            for Internal Control in the Federal Government states that transactions should be
            promptly recorded to maintain their relevance and value to management in
            controlling operations and making decisions. 7 To achieve these goals and
            objectives (i.e., ensuring that all transactions are complete and accurate),
            agencies need to establish control activities that promote the accurate and
            timely recording of transactions and events. Without accurate and complete
            information, government agencies risk making decisions that violate laws and
            regulations.

            According to USCIS, generally, individuals who are ordered deported or removed
            lose their lawful immigration status and any benefits they may have been eligible
            to receive. 8 Lawful permanent residents can lose status if they are convicted of
            a felony such as drug trafficking, aggravated assault, burglary, robbery, or fraud;
            or if they spend too much time outside the United States and thus fail to meet
            residency requirements. Individuals with temporary status can lose status if they
            commit a crime or overstay their authorized period of stay. Deportable aliens
            can file for immigration status or relief from deportation with USCIS and/or the
            Executive Office for Immigration Review (EOIR) within the U.S. Department of
            Justice (DOJ). 9 Without specific authorization to remain in the United States
            temporarily or permanently, a deportable individual is out of status and is not
            entitled to many government benefits.10

            However, USCIS Verification Division and U.S. Immigration and Customs
            Enforcement (ICE) officials told us that the Class of Admission code is generally
            not updated when an individual is ordered deported.11 USCIS officials explained
            that these individuals have the right to appeal or apply for relief, such as
            temporary protected status if they are afraid to return home. Consequently, it is
            not until the individual departs from the United States that the Central Index

   6
     Consolidated Appropriations Act, 2001, Public Law No. 106-554, § 515, 114 Stat. 2763A-153 to 2763A­
   154 (2000) (44 U.S.C. § 3516 note). The law is referred to as the Data Quality Act. 

   7
     GAO/AIMD-00-21.3.1 (Washington, DC: November 1999).

   8
     Generally, a specified period of time is allowed to appeal the decision. For individuals who had a lawful 

   immigration status, the order is an “administratively final order of removal” and results in loss of status 

   upon conclusion of administrative appeal proceedings or expiration of time permitted to file an appeal. 

   9
     EOIR includes the Immigration Courts and the Board of Immigration Appeals. Immigration Court and 

   appeal decisions are maintained by DOJ.

   10
      Some licensing agencies allow licenses for illegal aliens. Additionally, in extenuating circumstances,

   benefit-granting agencies may decide to assist someone who is in the United States illegally. 

   11
      The Central Index System Class of Admission is occasionally updated with the generic “IJ” code to 

   indicate that the person is in proceedings, but this identification is inconsistent.



www.oig.dhs.gov                                          4                                               OIG-13-11
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           System admission code is updated via an electronic interface with data
           maintained by ICE.12 As it can take years for an administratively final order of
           removal to result in an actual departure, the admission code can be out of date
           for a number of years.

           According to Verification Division officials, the accuracy of SAVE’s response
           depends on the type of information that it can access in the source systems.
           SAVE data for the period under audit showed that 77 percent of all initial
           electronic verifications most likely relied on the admission code in Central Index
           System for verification.13 As a result, erroneous admission codes resulted in
           erroneous status verification. Although a SAVE status verifier can determine
           when a person has a final deportation order by accessing the EOIR and ICE
           systems, status inquiries get to the SAVE verifier only when manual intervention
           is necessary. If the admission code appears to be valid at initial verification, the
           case rarely gets to the status verifier for additional verification.

           We identified examples of individuals who had administratively final orders of
           removal but whose status was verified by SAVE. In all cases, the SAVE responses
           were erroneous because the Class of Admission codes were not updated in the
           source systems. These individuals did not have relief from deportation or
           permanent or temporary status at the time SAVE verified their status.

           �	 One individual entered the United States and obtained lawful permanent
              resident status in 1983. After the alien was convicted of multiple felonies,
              including extortion and abuse, in April 2003, an immigration judge ordered
              the alien removed. This individual applied to the California Department of
              Health Services for assistance seven times between October 2008 and April
              2012. SAVE responded to all seven queries that the individual was a lawful
              permanent resident.

           �	 A refugee who obtained lawful permanent resident status in 1985 was
              convicted of homicide/negligent manslaughter involving a weapon in 2000
              and 2003. He was ordered deported in July 2010 during his incarceration.
              Subsequent to the individual’s release from detention, SAVE erroneously
              verified him as a permanent resident when he applied for student aid

   12
      The interface takes place through ICE’s ENFORCE Alien Removal Module (EARM). EARM supports ICE’s
   processing and removal of aliens from the United States.
   13
      When the agency submits an alien number as the numeric identifier, SAVE matches the alien number to
   Central Index System data and relies on the class of admission code to report status. If a numeric
   identifier mismatch occurs, SAVE automatically searches the CPMS/Image Storage and Retrieval System
   (ISRS) as a secondary source system. The CPMS/ISRS is a repository of green cards, employment
   authorization documents, and photographs from these cards.


www.oig.dhs.gov                                      5	                                            OIG-13-11
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  through the District of Columbia Education system in December 2010 and
                  January 2011. ICE removed this individual in June 2011.

           �	 A lawful permanent resident since 1989 was ordered deported in September
              2000 after convictions of multiple crimes, including illegal entry, assault,
              driving while intoxicated, and carrying a concealed weapon. The individual
              filed an appeal, which was rejected in 2002. In 2009, the individual applied
              for a Transportation Security Administration (TSA) Transportation Worker
              Identification Card (TWIC), which grants access to secure areas of
              transportation facilities. Upon inquiry, SAVE erroneously confirmed the
              individual’s immigration status. Although TSA has other tools in place to
              identify criminal convictions and therefore does not rely exclusively on SAVE
              when vetting individuals for TWIC, an accurate SAVE result can improve TSA’s
              vetting process. ICE removed this individual in May 2012.

           �	 One lawful permanent resident since 1964 was ordered deported in May
              1996 following conviction of aggravated felonies for drugs and weapon
              possession. In March 2010, SAVE verified the individual’s immigration status
              for a driver’s license or State Identification card. In November 2010, TSA
              queried SAVE while vetting crewmembers, a process whereby TSA assesses
              security threats to aviation related to crewmembers on flights to, from, and
              over the United States. In both instances, SAVE responded erroneously that
              the individual was a lawful permanent resident.

           Conclusion

           SAVE erroneously confirmed immigration status for individuals who no longer
           had status yet continue to reside in the United States. If USCIS developed an
           interface between SAVE and other systems at EOIR or ICE that contains
           information on an individual’s deportation or removal, the risk of confirming that
           deportable individuals have lawful immigration status to receive benefits could
           be mitigated. Furthermore, government agencies that rely on SAVE to provide
           accurate immigrant status could make informed decisions when processing
           applications for people who may no longer be eligible for benefits.




www.oig.dhs.gov                                  6	                                    OIG-13-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Recommendations

           We recommend that the Deputy Director, U.S. Citizenship and Immigration
           Services:

           Recommendation #1:

           Determine what data interfaces are necessary for SAVE to reflect the timely
           status of individuals who have lost status as a result of a final removal order or
           expiration of time permitted to file an appeal.

           Recommendation #2:

           Develop an automated interface that will result in SAVE accurately reflecting the
           immigration status of individuals who have lost status as a result of a final
           removal order or expiration of time permitted to file an appeal.

           Management Comments and Office of Inspector General (OIG) Analysis

           We obtained written comments on a draft of this report from the Director of
           USCIS. We have included a copy of the comments in its entirety at appendix B.
           We also obtained technical comments to the draft report, which we
           incorporated into the final report where appropriate. The Director of USCIS
           concurred with all recommendations.

           USCIS Comments to Recommendation #1:

           USCIS concurs with this recommendation. The Central Index System and EARM
           interface already exists, and USCIS will work with ICE to identify the related fields
           required to confirm when an administratively final order of removal is issued and
           will initiate steps to resolve the issues in fiscal year 2013. USCIS will also initiate
           a review of other potential data sources for this information in the same
           timeframe.

           OIG Conclusion

           The actions USCIS proposes satisfy the intent of the recommendation. This
           recommendation is considered resolved, but will remain open until USCIS
           provides documentation that the planned corrective actions are completed.




www.oig.dhs.gov                                  7                                          OIG-13-11
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           USCIS Comments to Recommendation #2:

           USCIS concurs with this recommendation. USCIS will seek and support changes
           to the EARM and Central Index System update process such that the Central
           Index System record indicates that an individual is under administratively final
           order of removal when the order becomes final rather than after the individual
           departs the United States. USCIS will initiate discussions with ICE beginning in
           fiscal year 2013 and will also initiate a review of other potential data sources for
           this information.

           OIG Conclusion

           The actions USCIS intends to take in fiscal year 2013 satisfy the intent of the
           recommendation. This recommendation is considered resolved, but will remain
           open until USCIS provides documentation that the planned corrective actions are
           completed.

           Inaccurate Source Data Resulted in a High Error Rate for the Population of
           Individuals Ordered Deported

           Our random statistical sample of nearly 177,000 inquiries with SAVE confirmation
           showed a projected error rate of 12 percent. 14 That is, we are 95 percent
           confident that one out of eight deportable aliens whom SAVE confirmed as
           having valid immigration status between October 1, 2008, and April 1, 2012, was
           actually out of status.

           To test the effect of the erroneous status codes, we drew the statistical sample
           from the population of positive SAVE confirmations (i.e., where SAVE confirmed
           that an individual had status to receive benefits). Because our objective was to
           determine the rate of erroneous SAVE immigration status results for individuals
           ordered deported, we excluded from our population (1) individuals who were
           ordered deported but did not apply for benefits and (2) individuals who were not
           confirmed as having valid immigration status. Table 1 shows the derivation of
           the population from which we selected our sample.




   14
     Our sample was developed to provide a 95 percent confidence level with a +/- 5 percent confidence
   interval.


www.oig.dhs.gov                                      8                                             OIG-13-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Table 1. Details of SAVE Population

                                                             Number of          Number of
            Population
                                                        Status Inquiries        Individuals
            Deportable aliens in the United States                     -­          849,609
            Deportable aliens who were submitted           324,665            104,868
            to SAVE for verification
            Deportable aliens confirmed as having          176,852             76,907
            status
           Source: Department of Homeland Security (DHS) OIG analysis of ICE and USCIS
           data.

           As table 1 shows, ICE identified nearly 850,000 individuals as deportable and
           believed to be in the United States. From October 1, 2008, through April 1,
           2012, nearly 325,000 status inquiries related to 105,000 of the deportable aliens
           were submitted to SAVE. The 177,000 inquiries that received a positive response
           from SAVE as to their immigration status became the population from which we
           selected our sample.

           A sample of 116 positive SAVE transactions selected statistically showed an error
           rate of 12 percent. The SAVE transactions that failed our tests failed because
           (1) SAVE verification occurred after the individual was ordered deported and
           (2) the individual did not apply for and get relief from deportation or temporary
           or permanent status. SAVE transactions passed our tests if, after the
           deportation ordered, the individual applied for and obtained relief or status.
           Appendix A contains further information regarding sample selection and testing.

           Table 2 summarizes the results of our statistical sample tests. The failures in our
           sample include individuals who applied for unemployment and disability
           insurance, food stamps, driver’s licenses, and other benefits. Several individuals
           had criminal records, including assault with a deadly weapon, extortion, drug
           convictions, and other convictions such as burglary, stalking, and child abuse.




www.oig.dhs.gov                                 9                                        OIG-13-11
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Table 2. Summary of Statistical Sample Results

                                  Number of
            Result              Transactions Reason for Result
            Fail                     14         Individual had no status—SAVE verified
                                                immigration status after the individual
                                                had been ordered deported.
            Pass                    102
            � Confirmed              11         Individual applied for and obtained
                 permanent                      lawful permanent resident or U.S. citizen
                 resident or                    status—
                 U.S. citizen                   � After being ordered deported and
                                                � Before SAVE verification
            � Verified               12         Individual was ordered deported after
                 before order                   the immigration status inquiry.
            � Temporary              79         Individual applied for and received
                 status                         temporary status—
                                                � After being ordered deported and
                                                � Before SAVE check
           Source: DHS analysis of SAVE verification data and relevant DHS systems.

           As table 2 shows, of the 116 SAVE positive results we tested, 102 transactions
           passed our statistical test while 14 transactions failed, for a projected 12 percent
           error rate.15 In other words, one in every eight verifications was erroneous. Of
           the 14 individuals who failed our tests, 12 had criminal convictions. For example,

           �	 Two individuals were involved in fraud ranging from forgery to identity theft,
              including two convictions of illegal use of credit cards.

           �	 At least 10 individuals had aggravated felony convictions involving extortion,
              aggravated assault, burglary, or dangerous drugs.

           USCIS performs quality assurance reviews of additional verification with a
           performance target of 98 percent of cases with a correct status determination.
           However, USCIS had not conducted reviews of the initial electronic verification
           process to determine the (1) extent to which SAVE relies on accurate information
           or (2) overall rate of errors.




   15
     Applying the 12 percent projected error rate to the 177,000 inquiries from deportable aliens who received
   SAVE confirmation results in more than 21,000 inquiries that may have erroneous SAVE responses.


www.oig.dhs.gov                                        10	                                             OIG-13-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Conclusion

           We identified a high SAVE error rate when confirming the status of individuals
           who had been ordered deported for identification purposes, financial assistance,
           or access to secure facilities. If USCIS performed periodic evaluation of initial
           verification to assess the accuracy of information SAVE used to determine
           immigration status and analyzed the resulting errors, USCIS could increase the
           accuracy of SAVE responses and potentially identify other populations at risk of
           erroneous verification.

           Recommendations

           We recommend that the Deputy Director, U.S. Citizenship and Immigration
           Services:

           Recommendation #3:

           Conduct periodic evaluations to validate the accuracy of SAVE initial verification.

           Recommendation #4:

           Analyze the periodic evaluation results to determine whether SAVE is at risk of
           verifying other populations erroneously.

           Management Comments and OIG Analysis

           USCIS Comments to Recommendation #3

           USCIS concurs with this recommendation. USCIS continuously evaluates the
           accuracy of additional verifications through the SAVE program’s quality
           assurance efforts and will leverage that process and apply it to initial verification.
           USCIS will initiate this process in fiscal year 2013.

           OIG Conclusion

           The actions that USCIS proposes satisfy the intent of this recommendation. This
           recommendation is considered resolved, but will remain open until USCIS
           provides documentation to support that the planned corrective actions are
           implemented.




www.oig.dhs.gov                                 11                                         OIG-13-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           USCIS Comments to Recommendation #4:

           USCIS concurs with this recommendation. USCIS will analyze the periodic
           evaluations identified in Recommendation 3. USCIS already analyzes the results
           of its additional verifications through the SAVE program’s quality assurance
           efforts and will leverage that process and apply it to initial verification. USCIS
           will initiate this process in fiscal year 2013.

           OIG Conclusion

           The actions USCIS intends to take in fiscal year 2013 satisfy the intent of this
           recommendation. This recommendation is considered resolved, but will remain
           open until USCIS provides documentation to support that the planned corrective
           actions are implemented.




www.oig.dhs.gov                                12                                       OIG-13-11
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This audit was initiated in response to concerns that the SAVE program provided
   erroneous responses as to immigration status of individuals. Our objectives were (1) to
   assess whether SAVE uses accurate and up-to-date information to validate immigration
   status of deportable, removable, and excludable individuals, and (2) if SAVE is not using
   accurate information, to determine the rate of error in SAVE with respect to verification
   of these individuals.

   We interviewed USCIS, ICE, and U.S. Department of Justice (DOJ) officials regarding the
   SAVE process, key data elements used in verification, and the system interfaces relied
   upon by SAVE. We reviewed relevant criteria, policies, and other guidance affecting
   orders of deportation, removal, and exclusion, and conducted walk-throughs of the
   verification process. We obtained USCIS data containing the results of more than
   37 million SAVE verifications and a list of nearly 850,000 deportable aliens from ICE.16
   The population from which we selected our transactions for testing was the nearly
   177,000 inquiries from October 1, 2008, to April 1, 2012, in which SAVE verified that the
   deportable individual had immigration status. Because our objective was to determine
   the rate of erroneous SAVE immigration status results for individuals ordered deported,
   we excluded records of individuals whose immigration status was not positively
   validated.

   Our sample plan was developed to provide a 95 percent confidence level with an
   expected error rate of 5 percent and a precision of no more than plus or minus 5
   percentage points on all attributes that apply to the entire population of transactions.
   We drew a statistical sample of 116 transactions from the population of transactions
   where SAVE confirmed the immigration status of individuals who had been ordered
   deported. 17




   16
     ICE provided data for close to 850,000 aliens who had been ordered deported, removed, or excluded.
   17
     We drew a sample totaling 130 transactions to allow for replacements transactions if necessary. We
   replaced one transaction where the biographic data from ICE did not match those from USCIS.


www.oig.dhs.gov                                     13                                             OIG-13-11
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   We tested each transaction to determine (1) whether SAVE verified immigration status
   prior or subsequent to the date the individual had been ordered deported (if SAVE
   verified immigration status prior to the date the individual had been ordered deported,
   then SAVE had provided an accurate response and therefore passed our test), and
   (2) whether the individual had obtained relief or had applied to USCIS for temporary
   authorization, such as an employment authorization document, to have lawful
   immigration status to work and/or receive benefits (in this case, a positive response on
   immigration status is also a pass).

   To determine the accuracy of the positive SAVE response, we reviewed the sampled
   individual’s lawful immigration status in various USCIS, ICE, and DOJ EOIR systems, and
   compared the date of the deportation order against any relief from deportation to the
   date of the SAVE request. We also confirmed the results that failed our tests with USCIS
   personnel and the underlying support for the information recorded in the systems that
   SAVE accessed. Given the results of our work, we are 95 percent confident that the
   population deviation rate is between 6.76 percent and 19.42 percent for deportable
   aliens.

   The results of the sample were projected only to the population of individuals who had
   been ordered deported, had applied for benefits, and had their immigration status
   positively verified by SAVE. The results did not include all SAVE verifications, such as
   (1) individuals who had not been ordered deported, (2) deportable individuals who did
   not undergo a SAVE verification, or (3) deportable individuals who applied for and failed
   to obtain a positive SAVE result. Because we followed a probability procedure based on
   random selections, our sample is only one of a large number of samples that we might
   have drawn. Since each sample could have provided different estimates, we express
   our confidence in the precision of our particular sample’s results as 95 percent
   confidence intervals (i.e., plus or minus 5 percentage points). These are the intervals
   that would contain the actual population value for 95 percent of the samples we could
   have drawn.

   We conducted this performance audit between April and October 2012 pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               14                                       OIG-13-11
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                                   U.S. D~p.r1mtnt or ll om~la n d Security
                                                                                                   U.S. Citizcnshi p lind Immigrntion Scnrk:cs
                                                                                                   Offlct 0/11t<- Dfr«lor (MS 2000)
                                                                                                   W:ashinglon, DC 20529·2000
                                                                                                   U.S. Citizenship
                                                                                                   and Immigration
                                                                                                   Services
             OCT 22 2012

                  Memorandum                                                     ~
                  TO;               Frank Deffe,
                                    Assistant Inspector Ge~
                                                          . I, In rma ti                 chnology Audits

                  FROM:             Alejandro N, Mayorkas
                                    Director
                                                                            M
                  SUBJECT:          Office oflnspector General Draft Report: Us. Citizenship and Immigration
                                    Services Improvements Needed/or SAVE /0 Accurately Determine Immigration
                                    Slaflls of Individuals Ordered Deported (OIG-12-023-ITA-USCIS)


                  U,S, Citizenship and Immigration Services (USCIS) appreciates the opportunity to respond to the
                  subject report and generally agrees with the Office of Inspector General (OIG) summary of the
                  issues identified. USCIS concurs that automated data interfaces will improve the timeliness and
                  accuracy of immigration status data, and agrees that periodic evaluations of the accuracy of
                  Systematic Alien Verification for Entitlements (SAVE) verifications can help mitigate the risks
                  of erroneously verifying current immigration status. uscrs would also like to note that it is
                  committed to providing the most current immigration status infonnation available. In this light.
                  USCIS has dedicated resources for conducting routi ne quality assurance reviews of all
                  verification processes and shares its findings with data partners throughout the Department of
                  Homeland Security (DHS) on a quarterly basis. These efforts have resulted in increased
                  awareness of common data accuracy and data latency issues to help with troubleshooting and
                  diagnostics. in addition, immigration status verification is often only one part of the eligibi lity
                  detennination that an agency must consider before granting a benefit to an individual. Other
                  safeguards, such as criminal background checks, help ensure the integrity of providing benefits
                  only to eligible individuals.

                  In response to the report, USCIS would li ke to note that multiple offices within USCIS and
                  multiple DHS components. including U.s. Immigration and Customs Enforcement (ICE),
                  manage record systems used by the SAVE program , While the SAVE program is neither the
                  owner nor the custodian of these immigration records, USCIS recognizes the need to interact
                  effectively with the other offices and components to ensure the data is up-to-date and accurate
                  for verification and otber purposes.

                  With res~ct to identifying persons who have been issued an administratively final order of
                  removal but whose records have not been updated in the Central Index System (CIS) database,

                  I An order of removal beeomes an admi nistratively final order of removal upon the earlier of either a determination
                  by the Board of Immigration Appeals (BIA) affirming the order or the expiration of the period in which the
                  individual may seek review of the order by the BIA, 8 U.S.C. § 110 I(aX47}(B), Specifically, an order orremoval



                                                                                                                          www.uscis,gov




www.oig.dhs.gov                                                          15                                                                      OIG-13-11
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security



                  010 Draft Report: U.S. Citizenship and Im migratioll Services Improvemellts NeededforSA VE
                  to Accurately Determine Immigration Status ofIndividuals Ordered Deported (OIG-12-023-ITA -
                  USCIS)
                  Page 2

                  thi s is an issue ofDHS component cooperation and communication and USCIS will work more
                  closely with its DHS partners, including ICE, to resolve this issue. In short, records concerni ng
                  admini stratively fina l orders of removal belong to ICE and are passed to CIS from ICE's
                  Enforcement Alien Removal Modu le (EARM) database. Currently these updates arc not made to
                  CIS until after the individual has physically left the United States. As noted in the audit report, a
                  considerable amount of time may elapse between the issuance of the administratively final order
                  ofrcmoval and actual departure. USClS will work with ICE to map a way forward to ensure that
                  more timely information is shared.

                  OIG recommends that the Deputy Director, USCIS:

                  Recommendation] : Dctcrminc what data interfaces are necessa...y for SAVE to rcflect the
                  timely status of individuals who have lost status as a result of a final removal ordcr or
                  expiration of time permitted to file an appcal.

                  USCIS response: USC IS concurs with this recommendation. The CIS and EARM interface
                  already exists. and USCIS will work with ICE to identify the related fields required to con finn
                  when an administratively final order of removal is issued and will initiate steps to resolve these
                  issues in fiscal year 20 13 (FYI 3). USCIS wi ll also initiate a TCview of other potential data
                  sources for this infonnation in the same time frame.

                  Recommendation 2: Devclop an automated inter face that will result in SAVE accurately
                  reflecting the immigration stat'us of individuals who have lost status as a result of a final
                  removal order or expiration of time permittcd to file an appeal.

                  USClS response: USClS concurs with thi s recommendation. As stated in the response to
                  Recommendation I, USCIS will seek and support changes to the EARM and CIS update process
                  such that the CIS record indicates that an individual is under an administratively final order of
                  removal when the order becomes final rather than after the individual departs the United States.
                  USCIS will initiate discussions with ICE beginning in FYI3 and will also initiate a review o f
                  other potential data sources for this information in the same time frame.

                  Recommendation 3: Conduct periodic evaluations to validate the accuracy of SAVE initial
                  verification.

              USCIS response: USCIS concurs with this recommendation. USCIS continuously evaluates
              the accuracy of additional verifications through the SAVE program's quali ty assurance efforts
              and wi ll leverage that process and apply it to initial verification. USCIS will initiate this process
              in FYJ3.


              becomes final when the BIA dismisses an appeal, an appeal is waived by the respondent, an appeal is not timely
              fi led, the B IA or immigration j udge certifies a subsequent removal order. an order of removal is entered in absenlia,
              or where an alternate order of removal is issued, if the individual overstays a period of voluntary departure or fails to
              timely post a vol untary departure bond. 8.CFR 1241. 1.           .




www.oig.dhs.gov                                                        16                                                                 OIG-13-11
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  OIG Draft Report:  u.s.
                                        Citizenship and immigration Services Improvements Needed/or SAVE
                  (0Accurately Determine immigralirJn Status of Individuals Ordered Deported (OIG-12-023 -ITA-
                  USCIS)
                  Page 3

                  Recommendation 4: Analyze the periodic cnluation results to determine whether SAVE is
                  at risk of verifying other populations erron eously.

                  USCIS response: USCIS concurs with this recommendation. USCIS will analyze the periodic
                  evaluations identified in Recommendation 3. USCIS already analyzes the results of its
                  additional verifications through the SAVE program's quality assurance efforts and will leverage
                  that process and apply it to initial verification. users will initiate tltis process in FY I3.




www.oig.dhs.gov                                                17                                                   OIG-13-11
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   John Kelly, Director
   Tuyet-Quan Thai, Regional Director
   Beverly Burke, Forensic Audit Manager
   Josh Wilshere, Forensic Auditor
   Bola Somade, Student Intern




www.oig.dhs.gov                            18                   OIG-13-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Director of USCIS
   USCIS Audit Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 19                         OIG-13-11
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
